Nos. 19-368 and 19-369
IN THE

~uprcntc Qtourt of tbc mlniteb ~tates
FORD MOTOR COMPANY,

Petitioner,

v.
MONTANA EIGHTH JUDICIAL DISTRICT COURT,
FORD MOTOR COMPANY,

et al., Respondents.

Petitioner,

v.
ADAM BANDEMER,

Respondent.

On Writs of Certiorari
to the Supreme Court of Montana
and the Supreme Court of Minnesota
CERTIFICATE OF SERVICE

I am a member of the Bar of this Court, and I hereby certify pursuant to
Supreme Court Rules 29.3, 29.5, and 37.5, that I have, this 6th day of March, 2020,
served three copies of the Brief for The Alliance for Automotive Innovation and
General Aviation Manufacturers Association as Amici Curiae in Support of
Petitioner upon each party separately represented in this proceeding by causing
them to be deposited with the United States Postal Service, with first-class postage
prepaid, addressed to counsel of record at the addresses listed below:
Sean Marotta
Hogan Lovells US LLP
555 Thirteenth Street, N.W.
Washington, D.C. 20004
Sean.marotta@hoganlovells.com

Counsel of Record for Petitioner

ACTI VE/102556097 .1

Deepak Gupta
Gupta Wessler PLLC
1900 L Street, N.W.
Suite 312
Washington, DC 20036
deepak@guptawessler.com

Counsel of Record for Charles Lucero, personal representative of the Estate of
Markkaya Jean Gullett
Kyle Wayne Farrar
Kastler Lynch Farrar & Ball LLP
125 NE First Avenue
Suite 3
Ocala, FL 34470

Counsel of Record for Adam Bandemer
I further certify that, pursuant to Supreme Court Rule 29.3, I have caused
electronic copies of the brief to be served on the parties at the email addresses listed
above.
I further certify that all persons required to be served have been served.

a tos
Go dwin · ter LLP
1900 N St., NW
Washington, DC 20001
JSantos@goodwinlaw.com
(202) 346-4000
March 6, 2020

ACTIVE/102556097. 1

Counsel for Amici Curiae

